<html>
<title> - Internet Freedom in the OSCE</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



115th Congress }                            Printed for the use of the                       
                        
 1st Session   }     Commission on Security and Cooperation in Europe
                                             
======================================================================


                      Internet Freeddom in the OSCE
                      
                       Region: Trends and Challenges


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                         November 14, 2017

                           Briefing of the
          Commission on Security and Cooperation in Europe
------------------------------------------------------------------------
                         Washington: 2018






      Commission on Security and Cooperation in Europe
                  234 Ford House Office Building                                               
                   Washington, DC 20515
                      202-225-1901
                     <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="94f7e7f7f1d4f9f5fdf8bafcfbe1e7f1baf3fbe2">[email&#160;protected]</a>
                      http://www.csce.gov
                         @HelsinkiComm

                                      
                                      
                                      
               Legislative Branch Commissioners



              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin		        SHELDON WHITEHOUSE, Rhode Island
                        
          
                 

               Executive Branch Commissioners
               
               
                    DEPARTMENT OF STATE
                   DEPARTMENT OF DEFENSE
                  DEPARTMENT OF COMMERCE
                            [II]


   ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE               
                  
   The Helsinki process, formally titled the Conference on Security 
   and Cooperation in Europe, traces its origin to the signing of the 
   Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
   European countries, the United States and Canada. As of January 1, 
   1995, the Helsinki process was renamed the Organization for Security 
   and Cooperation in Europe [OSCE]. The membership of the OSCE has 
   expanded to 56 participating States, reflecting the breakup of the 
   Soviet Union, Czechoslovakia, and Yugoslavia.
       The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
   of the participating States' permanent representatives are held. In 
   addition, specialized seminars and meetings are convened in various 
   locations. Periodic consultations are held among Senior Officials, 
   Ministers and Heads of State or Government.
       Although the OSCE continues to engage in standard setting in the 
   fields of military security, economic and environmental cooperation, 
   and human rights and humanitarian concerns, the Organization is 
   primarily focused on initiatives designed to prevent, manage and 
   resolve conflict within and among the participating States. The 
   Organization deploys numerous missions and field activities located in 
   Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
   website of the OSCE is: <www.osce.org>.
   
   
   ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE
   
       The Commission on Security and Cooperation in Europe, also known as 
   the Helsinki Commission, is a U.S. Government agency created in 1976 to 
   monitor and encourage compliance by the participating States with their 
   OSCE commitments, with a particular emphasis on human rights.
       The Commission consists of nine members from the United States 
   Senate, nine members from the House of Representatives, and one member 
   each from the Departments of State, Defense and Commerce. The positions 
   of Chair and Co-Chair rotate between the Senate and House every two 
   years, when a new Congress convenes. A professional staff assists the 
   Commissioners in their work.
       In fulfilling its mandate, the Commission gathers and disseminates 
   relevant information to the U.S. Congress and the public by convening 
   hearings, issuing reports that reflect the views of Members of the 
   Commission and/or its staff, and providing details about the activities 
   of the Helsinki process and developments in OSCE participating States.
       The Commission also contributes to the formulation and execution of 
   U.S. policy regarding the OSCE, including through Member and staff 
   participation on U.S. Delegations to OSCE meetings. Members of the 
   Commission have regular contact with parliamentarians, government 
   officials, representatives of non-governmental organizations, and 
   private individuals from participating States. The website of the 
   Commission is: <www.csce.gov>.
   
   			       [III]
   
   


                    Internet Freedom in the OSCE

                    Region: Trends and Challenges


                           November 14, 2017


                                                                     Page
                              PARTICIPANTS

Jordan Warlick, Staff Associate, Commission for Security and 
Cooperation in Europe.......................................... ......  1

Sanja Kelly, Director, Freedom on the Net, Freedom House..............  2

Dariya Orlova, Senior Lecturer, Mohyla School of Journalism in 
Kyiv, Ukraine........................................................   5

Berivan Orucoglu, Human Rights Defenders Program Coordinator, The 
McCain Institute.....................................................   7

Jason Pielemeier, Policy Director, Global Network Initiative.........  10


                                  [IV]


 
                        Internet Freedom in the OSCE

                        Region: Trends and Challenges
                               
                               
                               ----------                              

                             November 14, 2017
                             

                Commission on Security and Cooperation in Europe
                               Washington, DC


    The briefing was held at 1:00 p.m. in Room 215, Senate Visitors 
Center, Washington, DC, Jordan Warlick, Staff Associate, Commission for 
Security and Cooperation in Europe, presiding.
    Panelists present: Jordan Warlick, Staff Associate, Commission for 
Security and Cooperation in Europe; Sanja Kelly, Director, Freedom on 
the Net, Freedom House; Dariya Orlova, Senior Lecturer, Mohyla School 
of Journalism in Kyiv, Ukraine; Berivan Orucoglu, Human Rights 
Defenders Program Coordinator, The McCain Institute; and Jason 
Pielemeier, Policy Director, Global Network Initiative.

    Ms. Warlick. All right. I think we'll go ahead and get started. On 
behalf of the Helsinki Commission, welcome and thank you for coming to 
today's briefing on internet freedom in the OSCE region. My name is 
Jordan Warlick, and I am responsible for media freedom issues at the 
commission.
    It goes without saying that the internet has fundamentally changed 
the way we communicate and receive information. This has, by and large, 
been for the better, allowing for greater access to information and 
freedom of expression. Yet, in this constantly evolving landscape of 
new technologies are new threats and tactics to control and manipulate 
information. These range from far-reaching restrictions such as 
excessive internet regulation or government shutdowns of websites and 
social media platforms, to more proactive tactics such as arrests of 
online journalists or campaigns to actively spread disinformation.
    While autocracies increasingly fear the power of the internet and 
crack down on online activity, democracies struggle with how to counter 
foreign content manipulation campaigns without undermining internet and 
media freedom. OSCE participating States have agreed to uphold the 
principles of free expression and free media, which should apply as 
much on the net as off the net.
    This is a big subject to tackle, but we're fortunate to have such 
an expert group of panelists to help us dig deeper into the issues. 
Earlier today, Freedom House released its annual Freedom on the Net 
report, \1\ copies of which have been made available. We'll first hear 
from the director of Freedom on the Net, Sanja Kelly. She'll share the 
general findings of the report with us, as well as a more targeted 
assessment of the situation in the OSCE region. Following Sanja, we 
have Dariya Orlova, who is a senior lecturer and deputy director of 
research at the Mohyla School of Journalism in Kyiv. Dariya will shed 
some light on the specific trends in Ukraine, which has seen one of the 
greatest declines in internet freedom over the last year and has been a 
top target for Russian interference. Dariya was a journalist herself in 
Ukraine, prior to her academic career.
---------------------------------------------------------------------------
\1\  https://freedomhouse.org/report/freedom-net/freedom-net-2017
---------------------------------------------------------------------------
    Next, we'll hear from Berivan Orucoglu, program coordinator of the 
Supporting Human Rights Defenders program at the McCain Institute. She 
previously served as senior communications adviser to the U.S. 
ambassador to Turkey and has experience as a journalist at various news 
outlets in Turkey, Europe, and the United States. Turkey's internet 
freedom record has declined significantly in recent years, which I'm 
sure Berivan will elaborate on much more for us.
    Finally, Jason Pielemeier is policy director at Global Network 
Initiative, and works with policymakers and other stakeholders to 
enhance protections for free expression and privacy globally. Before 
joining GNI, he was special adviser at the Department of State, where 
he led the internet freedom, business and human rights section in the 
Bureau of Democracy, Human Rights, and Labor. We will follow remarks 
from our panelists with a question and answer session.
    Thanks, again, to our panelists for being here today, and Sanja, if 
you could please start us off.
    Ms. Kelly. Thank you very much, Jordan. I'm deeply grateful to the 
U.S. Helsinki Commission for the opportunity to address this important 
topic.
    My name is Sanja Kelly, and I'm the director for Freedom on the Net 
project at Freedom House. As some of you might know, Freedom House is 
the oldest American human rights organization working on the ground in 
over 30 countries to help democratic governments and to support human 
rights defenders, independent media and political dissidents. Although 
our programs are far reaching, we're perhaps best known, actually, for 
our publications. And as Jordan mentioned, today we are releasing the 
eighth edition of one of our signature reports, Freedom on the Net, 
which examines the state of internet freedom in 65 countries globally.
    Freedom on the Net is kind of a Michelin guide for net freedom, 
because we rank governments based on their performance, so you can 
immediately see on our website, and then also in our publication, what 
score countries receive, what their strengths and weaknesses are, and 
how they compare to one another.
    The findings of this year's Freedom on the Net are particularly 
disturbing. And we had seen that internet freedom has declined for the 
seventh consecutive year as governments around the world have 
dramatically increased their efforts to manipulate the information on 
social media. The Chinese and Russian regimes have pioneered many of 
the techniques that we will be talking about today, but this 
manipulation issue has really gone global, and we have seen that 
governments in 30 out of 65 countries that we examined have employed 
some of these methods.
    I will just give you a few examples. In the Philippines, we have 
seen keyboard armies actually writing about these issues on behalf of 
the government, covertly, and kind of giving the indication that 
policies by the government are widely supported. We have also seen 
armies of trolls paid by the Turkish Government attacking journalists 
and attacking human rights defenders.
    The OSCE region itself, with its 57 member states, is diverse in 
terms of geography and in terms of type of polity. It encompasses 
countries that are some of our best performers on the index, so 
countries like Estonia, Iceland, Germany, the United States, and so 
forth. But then, it also encompasses some of the worst performers. 
Those would be Uzbekistan, Russia, and Turkey. And one of the worrisome 
observations from our study is that Russia, an OSCE member, is using 
the internet to interfere in democratic processes in other OSCE member 
States--not just the U.S. and Western Europe, but also in places like 
Armenia, Ukraine, and elsewhere.
    These same manipulation techniques, including paid pro-government 
commentators, bots and fake news, that the Russian authorities have 
been using in their disinformation campaigns abroad, have long been 
used, actually, against Russian independent journalists, political 
opponents, and other critical voices. But this is just only one of the 
aspects of controls on the internet that we had seen from the Russian 
Government. For example, amid major anti-government protests held in 
2017, the Russian Government scrambled to further tighten control over 
the internet, and now, with presidential elections looming in March of 
2018, lawmakers took every opportunity to push through legislation 
aimed at curbing dissent online. The space for anonymous communication 
shrunk as the government imposed restrictions on virtual private 
networks [VPNs] and proxies, which are key tools employed by both 
activists and ordinary users to use the internet in relative safety 
from the government's surveillance, while also allowing access to 
sensitive content.
    And then, there is another new law which requires users of online 
messengers to register their phone numbers, linking their online 
communication to their real identities. And LinkedIn was the first 
major international platform blocked for refusing to comply with data 
localization requirements. We've seen social media users imprisoned for 
their expression online, and we've also seen LGBT activists charged 
with spreading so-called gay propaganda online, and they were issued 
hefty fines. But overall, in terms of the region, internet freedom in 
the OSCE has followed similar patterns as the rest of the world. And of 
the 19 OSCE countries we examined, 12 declined, 4 improved and 3 saw no 
notable change. And I would like to highlight the following three 
trends over the past year that contributed to this overall decline.
    Number one, as I mentioned, is this issue of growing online 
manipulation. And as online censorship and other restrictive tactics 
prove inadequate in curbing dissent, more and more governments are now 
mass-producing their own content to distort the digital landscape in 
their favor. Our study documents that the creation of online government 
propaganda, through government-sponsored websites and outright 
editorial directives to news media, were among the most widely utilized 
methods of manipulation, and they were followed by paid government 
commentators, by use of political bots and intentional distribution of 
false news stories--``fake news,'' as you will have it.
    Although some governments sought to support their interests and 
expand their influence abroad, as was the case with Russia, in many 
cases governments actually used these methods inside their own borders 
to maintain their hold on power. So in Turkey, for example, some six 
thousand people have allegedly been enlisted by the ruling Justice and 
Development Party to manipulate discussions, to drive particular 
agendas and counter government opponents on social media.
    The second trend I wanted to highlight is this issue of physical 
attacks. And the number of countries that featured physical reprisals 
for online speech increased by 50 percent globally over the past year. 
This trend was mirrored in Eurasia as well, where online journalists 
and bloggers who criticized the government, who wrote about corruption 
or about social issues such as LGBTI rights were beaten, and in some 
cases, murdered. Perpetrators in most cases remained unknown, but their 
actions often aligned with the interests of politically powerful 
individuals or entities.
    In Russia, for example, in May of 2017, Dmitry Popkov, who is 
editor-in-chief of a local newspaper and online outlet, was shot and 
killed in his home by unknown assailants. Popkov was known for his 
critical reporting on corruption, abuse of power and criticism of 
authorities. Failure to bring to justice perpetrators of these attacks 
perpetrates a cycle of impunity and creates a chilling effect for 
others writing on the same substantive issues. And then, I want to 
bring up this issue of technical attacks, because this is something 
that we have highlighted as a global trend, and it has been a 
particularly important trend in the Eurasia region. Technical attacks 
against news outlets, opposition and human rights defenders has 
generally been on the rise globally, but our analysis showcases, 
actually, that the greatest number of successful attacks--meaning when 
the websites were taken down, or when activist networks were 
infiltrated--actually took place in Eurasia and Latin America.
    Indeed, the security vulnerabilities present government-affiliated 
entities with an opportunity to intimidate critics or censor dissent 
online while avoiding responsibility for their actions. And it is often 
difficult to identify, with certainty, those responsible for anonymous 
cyberattacks, including when suspicions of government involvement are 
high.
    There are several outcomes, or several particular ways in which we 
had tracked some of these attacks. We had found that the most frequent 
outcome of these attacks was actually having websites temporarily 
disabled. These types of attacks, you know, are often perpetrated 
through distributed denial-of-service attacks [DDoS]; they're a 
relatively easy and relatively inexpensive way to retaliate against 
those who report on sensitive topics. And we had seen that in a number 
of countries. In Azerbaijan, for example, the independent online news 
platform Abzas was subject to a series of DDoS attacks in January 2017, 
and they were actually online until they were able to migrate to a more 
secure service.
    We've also seen, as an outcome of these attacks, increased 
surveillance of reporters and dissidents. And just to give you an 
example, in August of 2016, reports emerged that Kazakh opposition 
figures and dissidents living abroad were targeted with malware 
attacks, with evidence suggesting that the attacks were conducted by 
agents of the government via an Indian security company called Appin 
Security Group.
    We've also seen websites and social media accounts being 
compromised. For example, in Belarus, on the eve of the March 25th 
Freedom Day demonstrations, the Facebook account of one of the 
opposition leaders and a chief organizer of the protests was hacked, 
and the account, then, after it was hacked--it actually disseminated 
fake posts under this opposition leader's name that actually 
discouraged people from attending the demonstration.
    So the issues that I outlined are serious and pressing, and given 
that many of our social interactions today take place online, this 
fight for internet freedom has become inseparable from the broader 
fight for democracy and human rights. And I'm just going to offer a few 
recommendations in the end, in terms of what can be done to help remedy 
this issue.
    Number one would be, through Congressional appropriations, we 
should ensure robust funding for the State Department and other 
relevant agencies for internet freedom programs that support advocates 
around the world in combating disinformation. They also provide 
cybersecurity training to civil society and independent journalists, 
and enable emergency assistance for human rights.
    I would also urge the U.S. Congress and the commission to speak out 
and condemn publicly when someone is arrested or physically attacked 
for simply posting their views online on politics, human rights, or 
social issues. And that will send a message that these incidents do not 
go unnoticed by the U.S. Government. I think, domestically, we need to 
ensure that political advertising is at least as transparent online as 
it is offline, and online political ads should indicate who sponsored 
them, and social media companies should make this information available 
and indicate the source of payments for such ads.
    And finally, better media literacy is needed to help citizens 
discern fake news from trustworthy sources, and Congress should review 
current law and policy with this in mind and assist in these 
educational efforts through speeches, town halls, and other constituent 
engagements.
    Thank you.
    Ms. Warlick. Thank you very much, Sanja, for the summary of your 
findings in your report and for offering those recommendations to us. 
Dariya?
    Ms. Orlova. First of all, thank you for the opportunity to 
participate in this discussion, and also provide an overview of the 
Ukraine case. According to this year's Freedom on the Net report, 
Ukraine has shown to be one of the biggest declines among examined 
countries. The country has lost seven points compared to the previous 
year. The major reason of the decline is the introduction of bans on 
several Russian internet services, including two popular social 
networks, VKontakte and Odnoklassniki, a popular email service, Mail 
Ru, one of the most widely used search engines, Yandex, and several 
other online services as part of sanctions against Russian companies.
    So the ban was introduced in May this year. In justifying the ban, 
the Ukrainian Government argued that it is a security measure in 
response to the information war launched by Russia against Ukraine, 
pointing to the capacity of Russian security services to extract and 
use metadata on Ukrainian users from these platforms. The move got a 
huge public reaction, both inside the country and outside, particularly 
given the popularity of the targeted websites; to give you some 
figures, about 20 million of Ukrainian users were registered on 
VKontakte, and about 5.5 million users on Odnoklassniki, which means 
that every fourth Ukrainian was online on VKontakte.
    Several other factors, however, also contributed to the Ukraine's 
drop in the index of internet freedom this year--among those, 
persistent prosecution of social media users for expressing separatist 
viewpoints and threatening the territorial integrity of Ukraine. So, 
dozens of such cases have been noted. In addition, there has been quite 
a dangerous environment for online activists and journalists, 
particularly in the light of the murder of online journalist Pavel 
Sheremet in July last year.
    The report on Ukraine also reflects a tense situation with internet 
freedom, especially with regard to user rights violations and online 
censorship in the eastern part of the country, in the self-proclaimed 
separatist republics, where de facto authorities have been prosecuting 
and even imprisoning social media users and bloggers. So, this also 
contributed to the overall score of Ukraine. The ban on Russian social 
media by the Ukrainian government attracted fair criticism from various 
actors, however, primarily from the external ones. In the very country, 
response has largely been less critical, although one could observe 
divisions with regard to this issue and criticism as well. Acceptance 
of the ban by a significant part of the Ukrainian society, particularly 
among elites, is explained by the acuteness of challenges that Ukraine 
has been facing during the last three years.
    So, as you might know, during these last three years, Ukrainians 
have experienced Euromaidan revolution, then annexation of part of the 
territory--Crimean Peninsula by Russia, and the eruption of armed 
conflict in the Eastern part of Ukraine. These actions were also 
accompanied by very harsh propaganda and disinformation campaigns 
coming from Russia, and the scale of these campaigns has been enormous 
during these last three years. It started with outspoken distortions in 
the coverage of Euromaidan protests and biased portrayal of protesters 
by Russian media, which contributed to polarization of Ukrainian 
society, particularly in the regions characterized by stronger 
historical and cultural ties with Russia, where people tended to 
consume Russian media, including news, quite a lot.
    Thus, Russia utilized vulnerabilities of some of the social groups 
in Ukraine. Disinformation and propaganda has had quite many forms in 
Ukraine, starting from fake stories disseminated through the mainstream 
media, but not only. For instance, Russia created supposedly Ukrainian 
websites with very critical content about Ukraine and the government, 
but then journalist investigations revealed that, in fact, those 
outlets are located in Russia, and they don't even have local 
correspondents in Ukraine. So their whole content about Ukraine is 
coming from Russia, and what is more, they present themselves as 
Ukrainian media outlets, but in fact, they are not.
    We have also seen proliferation of various agents conveying 
specific narratives into Ukrainian online public sphere. For instance, 
one of the most recent examples is the findings by the BBC on the 
Russian troll factory in St. Petersburg that worked with the self-
styled Donetsk People's Republic in Eastern Ukraine to produce extreme 
propaganda videos that aimed to discredit pro-Ukrainian elements and 
stirred up the conflict in the region. So these videos were widely 
disseminated through social media.
    In Ukraine, we have also found some other examples of such 
manipulations coming from external agents. In the online public sphere, 
for instance, Kremlin-aligned trolls have been observed posing as 
enthusiastic Ukrainian patriots online, creating several--not several, 
but dozens of thematic groups and communities in the social media, and 
observers have noted that the troll accounts operated in quite 
intricate networks and often highly active in Ukrainian patriotic 
groups on social media, sometimes even acting as administrators of 
those pages. Their profile pictures have been observed to contain 
symbolic Ukrainian images, and those accounts typically posted content 
and comments that depicted the Ukrainian Government as failing their 
citizens and calling for the violent overthrow of the current 
administration. So their biggest message and narrative was that, let's 
have the third Maidan--let's overthrow this government, which is not 
leading Ukraine in the right way.
    However, it is not only external agents that have been flooding the 
Ukrainian online public sphere. There have been numerous attempts to 
manipulate online debate in Ukraine, coming from many different 
political actors inside the country. So we have seen the growing number 
of attacks on journalists--I mean, verbal attacks on journalists 
online, especially those journalists that produce some critical 
contents--some investigations. So their accounts on social media have 
been flooded with very negative comments from various accounts, most of 
which have features of trolls or bots. So, as a result, we now can 
observe social media fatigue among media community and broader public, 
too, in Ukraine, because of this toxic influence of paid commentators, 
trolls and bots. And many journalists claim that they feel discouraged 
to actively participate in the online debate because of this high 
presence of trolls and bots.
    There are reports suggesting that the network of companies and 
organizations that offer such services to various actors, including 
politicians, is quite broad in Ukraine, and so there is the whole 
ecosystem that includes various actors that manipulate the online 
public sphere. So I think that this briefly tells us about the 
situation in Ukraine and the major challenges that Ukrainian internet 
freedom and actors of internet freedom have been facing so far, and 
I'll be glad to answer to your questions.
    Thank you.
    Ms. Warlick. Thank you, Dariya, for that summary of the significant 
challenges that Ukraine is facing. Berivan?
    Ms. Orucoglu. Thank you. Thank you, Sanja, for a great report, and 
that very depressing one globally. [Laughter.] Actually, it really 
breaks my heart to talk in a panel about internet freedom and about 
Turkey, because not long ago--like seven years ago, Turkey was seen as 
a model country for Middle East and for other democracies. And yet, 
here we are, and Freedom House has every right to mention the sharp 
decline in internet freedom, because this is not only freedom of 
internet, but freedom of press, freedom of expression in general is 
restricted in Turkey, and by the day, we are losing more rights. And 
maybe, just to mention some figures would help you to have a better 
understanding.
    Since 2013, it was the mark of the protests--Gezi protests--Turkish 
public has divided tremendously: pro-Erdogan, pro-government people and 
the people who hate Erdogan in whatever he does. So there is enormous 
polarization within the public, and the government is trying to control 
the message, not only in mainstream media, but also on social media. 
The mainstream media is under government control, either by government 
people or even the other opposition papers are trying to align 
themselves with government because they are scared of the bans and 
imprisonment, which they have every right to be.
    Right now, in Turkey, there are 150 journalists behind bars, and 
200 media outlets are shut down. Over a thousand civil society 
organizations are also shut down. And after last year's failed coup 
attempt, more than 60,000 people have been arrested and 140,000 are 
fired or suspended from their jobs. And just last year, almost 4,000 
people are sued for insulting President Erdogan on their social media 
accounts. And I want to remind that 240 of them were under the age of 
18. So it is really grim--the situation is grim. The mainstream media 
already lost its touch with people, so people do not trust mainstream 
or traditional media, and the primary focus for news gathering is 
social media. So this also brought more restrictions to internet 
freedom, and especially in social media.
    So most of the time, Turkey is seen and Turkey is reported as the 
world champion in Twitter censorship. And most of the content withheld 
or blocked requests are coming from Turkey, and unfortunately, this 
year, we didn't disappoint. Once again, in Twitter requests, Turkey has 
failed. And internet connection is so often slowed down--especially 
during security operations or protests or after terrorist attacks. 
Actually, when I first came to the United States, I was a little bit 
panicked, because I didn't have a wi-fi connection. So, automatically, 
I assume something big is happening. It was just Comcast maintenance. 
[Laughter.] But it takes me for a while to get used to this. 
Unfortunately, we are so used that internet slowing down or shutdowns. 
Access to, for example, Twitter, Facebook, YouTube, and WhatsApp are 
restricted so many times, and sometimes blocked--sometimes just for a 
couple of hours, or days, depending on the situation, depending on the 
region, and mostly southeastern part of Turkey affected from those 
restrictions.
    Oh, another--Wikipedia is permanently blocked, actually, in Turkey 
since May. So it's because of Turkey's involvement in Syrian war--or, 
allegedly--and popular VPNs and Tor is also blocked or limited. Over 
100,000 websites are banned, and most of the time, the owners of the 
banned sites are not informed or have enough time to comply the 
requests. So there are so many websites are banned. And almost every 
day, minimum seven people are detained because of their social media 
posts. So people are actually quite paranoid to write anything or to 
talk about anything. And they have a good reason for it.
    In recent years, after the coups, people, including journalists, 
academicians and activists, are hesitant to even like or re tweet a 
post, because they don't know what it can bring in terms of charges, in 
terms of--it is so easy--the perception is basically, you can lose your 
job or your freedom if you are not supporting the government--more than 
the government, President Erdogan.
    So this is the general mood, and the government has so many 
tactics. Sanja mentioned that, for the last four years, government 
employed 6,000 trolls, basically, to harass and to control the online 
content and online discussions. They ended up harassing journalists, 
human rights activists, or any citizen, basically, who is opposing 
President Erdogan and his policies.
    And no one is immune. It included politicians, academicians, top 
models or film directors, singers. So anyone from society can be 
targeted by those trolls. And usually, those trolls are not only 
harassing them online, but most of the time, it brings prosecution 
after that. So this is the dangerous trend. Also, there was a hack in 
one of the ministers' email, and we learned from those leaked emails--
we have 6,000 trolls, but also we have more people who are just die-
hard loyalists, and only working for President Erdogan. And the smaller 
group, apparently, is looking for coders, graphic designers or former 
military members who have experience in psychological warfare.
    And trolls are not the only thing that government is using to 
repress, basically, the free communication--free online communication. 
Turkey is one of the highest countries in using bots in Europe and 
Middle East and Africa. There was also an interesting case last year. 
The government is not only oppressing the opposing voices, but also 
eliminates competition within the governing party. Last year, then 
Prime Minister Ahmet Davutoglu forced to resign after a blog appeared, 
which was called Pelican Brief. And it was basically harassing 
Davutoglu and his team, and he ended up resigning, and an Erdogan 
loyalist, basically, replaced him. And this blog was basically run by 
pro-government columnist and journalists who are known close to Erdogan 
and Erdogan family. And also, this year, apparently, they are hiring 
new hackers--it's called white hat hackers--and there was an online 
competition to find the best hackers to protect Turkey, which kind of 
creeps me, because I don't know what they are going to be responsible 
of.
    If those are not enough, by the way, the police are also 
encouraging people--regular citizens to become ears and eyes of the 
State. So they have new applications and accounts, basically, to tell 
citizens to snitch others. So people are sending screen shots or links 
of certain Twitter accounts, and they send it to police so that others 
can actually follow up. And the pretext is always national security, 
and to protect country, but it ended up--people, for example, snitching 
about their coworkers which they don't really like. So there were so 
many examples. And also, this--the Turkish people, because of this 
whole harassment, basically, they rely on encrypting messaging. They 
don't trust anyone; they no longer use Twitter as--they still use 
Twitter or social media platforms, but they are more hesitant to share 
their own views. So they are using WhatsApp, Telegram or Signal or 
those kind of encrypted messaging services. And one of those messaging 
services became, actually, quite relevant, because after the failed 
coup attempt, thousands of people were arrested just because they have 
an application on their mobile phones. The application was called 
ByLock, and right now, 200,000 people are under investigation because 
of this application.
    According to government, if you have any links to this application, 
this means that you are basically a coup plotter or you are trying to 
overthrow the government somehow. The good news is, even the government 
realized that this single app cannot be a whole evidence to imprison 
people. Bad news, there are so many people already in jail because of 
this application, for months. But I want to be fair--before the last 
year's coup attempt, no one ever heard of this application in Turkey 
other than this Gulenist group who were basically in charge of the 
military failed coup attempt.
    And I just want to make a warning to U.S. public, basically, 
because this attitude towards the Gulen group--they were actually the 
allies of Erdogan until very recently--and in the United States, there 
is almost an understanding that this group is kind of tolerant, 
moderate and basic activist organizations. The perception in Turkey--
opposition or government, everyone--almost everyone unites that this is 
not a really clean organization. They are not transparent. They are 
responsible of the failed coup attempt, which attempted--250 peoples' 
lives, and thousands of people were injured. And more than that, they 
are not only responsible of the failed coup attempt, but until 
recently, they are the ones who were doing the illegal wiretapping, or 
they were the ones harassing people online, fabricating evidence, which 
ended up with so many journalists in jail in 2008 and basically until 
2012.
    So this--we're not talking about a group of really clean activist 
organization, but unfortunately, it seems that the dislike of Erdogan 
in the West, especially in the U.S., seems to give a free pass to 
Fethullah Gulen and his organization. But for so many people in Turkey, 
people have great difficulty to understand this attitude. Yes, there 
are so many reasons to criticize Erdogan. We do it every day. But this 
doesn't mean that some of the measures, at least, have some sort of a 
pretext. Yes, Erdogan used this as an excuse to oppress more critics. 
And there are so many people in jail who have nothing to do with 
Gulen--basically, journalists, activists--they always criticized Gulen, 
but they ended up in jail. This is Erdogan. But also, Gulen, who is 
residing in the United States, is a huge issue for Turkish people. And 
for the first time, the entire Americans and Turkey is in 90 percent. 
So people are united against that and I really warn the U.S. public to 
be more careful when dealing with Gulen. There is a reason that--of 
this whole attack and whole criticism about Gulen in Turkey.
    Last but not least, yes, the situation is grim, but Turks are 
resilient and creative. They come up with different tricks every day to 
basically overcome the obstacles and restrictions. For example, one 
banned website recently celebrated its 41st new domain name--
[laughter]--and it's not the only one--so many of them. And I'm not 
going to be able to tell the trick, but smart Turks can access 
Wikipedia with just a minor trick. I don't want to tell about it 
because--[chuckles]--then it can also be banned.
    But thank you for listening, and I'm open to questions.
    Ms. Warlick. Thank you very much for describing the realities in 
Turkey. The statistics you referenced were pretty incredible and very 
disturbing. Jason?
    Mr. Pielemeier. Thank you Jordan, and thank you to the Helsinki 
Commission for hosting this event. Thank you to the fellow panelists. 
Just want to start with a brief introduction to the Global Network 
Initiative, for those who don't know us. GNI is a global multi-
stakeholder platform that's dedicated to the protection of free 
expression and privacy online. Our members include internet and 
telecommunications companies, human rights and media freedom groups, 
academics as well as investors. So a very broad-based coalition.
    We work with four principal functions. The first is, we have a set 
of GNI principles and related implementation guidance, which provide a 
framework for responsible company decisionmaking and action in response 
to government requests and demands. We foster accountability through an 
independent assessment process to evaluate our member companies' 
implementation of those principles. On the basis of this, sort of, 
trusted platform, we then create. We do shared learning, both 
internally among our members, which is a, kind of, closed, private 
conversations, as well as externally with relevant stakeholders, 
including government. And then, finally, we promote collaborative 
policy engagement on the issues that are central to our mission.
    In almost all of those areas, we use and place tremendous important 
value on the Freedom on the Net report, and I'd like to just take this 
opportunity to thank Sanja and her team of incredible writers and 
editors for producing yet another year of invaluable, if disheartening, 
reports. I also want to pay special attention and send my thanks to 
those organizations that provided financial support to Freedom on the 
Net, without whose support this report can't cover nearly as many 
countries as it does. So, in particular, I want to note GNI members 
Google and Yahoo--now Oath--who supported the report again this year. 
And I also want to acknowledge the vital support of the State 
Department's Bureau of Democracy, Human Rights and Labor, where I 
worked until quite recently. I hope the folks here on Capitol Hill 
remain committed to supporting DRL's amazing internet freedom grant 
work, including its support for Freedom on the Net.
    So I want to talk a little bit about some of the trends that have 
been discussed so far, but place them, perhaps, in a little bit of a 
longer historical timeline. I think that you can see a lot of the 
activity that's been taking place--the sort of repressive activity 
that's been taking place online of late as a reaction to some of the 
frustrations that governments have had in trying to take simpler routes 
to getting rid of problematic content or surveilling people who they 
think are using the internet in ways that undermine their own regime 
security.
    So, you know, traditionally, the kind of initial approach of 
repressive governments to problematic content--content that they see as 
problematic is to try and censor it. I think, increasingly, they have 
found that they don't have as much leverage over the principal social 
media platforms as they would like, and they have become frustrated 
with their inability to get as much compliance as they would like to 
see from the major net companies. I think, you know, GNI, certainly--
we'd like to take some of the credit for that. Our principals help 
provide a framework and support for companies in pushing back against 
over-broad requests from governments.
    And then, on the surveillance side, I think, you know, in 
particular, the increasing use of encryption, both HTTPS encryption for 
web searches as well as end-to-end encryption for messaging has made it 
more difficult for repressive governments to have direct access to the 
content of individuals that they are trying to monitor. And so what 
we're seeing is sort of an evolution of tactics in response to some of 
those frustrations.
    So I would characterize those in two general, sort of, categories. 
One is defensive maneuvers by governments intended to protect 
themselves from activities that they see as threatening to their power 
base, and then, offensive, which is a newer set of activities which 
include activities that go beyond just their own traditional 
jurisdictional borders.
    To speak a little bit about some of the trends that we observe in 
each of those categories, first, on the defensive side, folks who study 
history may remember in the 1970s and 1980s--in particular, in Latin 
America, an economic model called import substitution 
industrialization, where developing countries essentially imposed very 
high tariffs on imports in order to try and shelter and build up 
domestic industrial production. This was largely a failed economic 
strategy, but I think I see some parallels in today's internet era--
what I'll call internet substitution informatics. So it's ISI, but a 
different realm, and a different set of techniques.
    So governments are essentially increasing the scrutiny and their 
requirements for foreign media generally, and foreign social media 
specifically, as well as supporting the development and protection of 
national champions--trying to build up national competitive social and 
internet services--social media and internet services. You see that, 
for example, in Turkey; Turkcell has come out with a new search engine 
called Yaani, which is intended to promote Turkish culture and values.
    You see that in Russia, with some of the protectionism for some of 
the Russian internet media companies, which are seen as useful and more 
accessible and more compliant for government, as opposed to the foreign 
media and social media companies. I think that it dovetails with some 
of the threats we've seen just in the last week from President Putin to 
respond, quote/unquote, ``tit for tat'' to the forced registration of 
RT here under FARA. And so no action has been taken, but there's 
certainly a signal that there may be steps taken in days to come 
against foreign social media, in particular U.S. social media.
    Those sort of building up in support for domestic internet 
services, I think, are also in line with kind of the broader strategy 
that you see recently in Ukraine, right, attempting to basically ban 
Russian social media. Not as much in order to protect any kind of 
domestic incumbent, but rather as a security measure.
    And sort of similar to that, you know, there is a very sort of 
conscious and by now several-year-old strategy on the part of certain 
authoritarian leaders, in particular in the OSCE region, to discredit 
Western social media platforms. So Zeynep Tufekci, the Turkish scholar, 
has called this Erdogan's strategy to demonize social media. And 
certainly Vladimir Putin has been quite vocal in his criticism of 
platforms like Facebook and Twitter. So I think that some of those 
efforts to discredit the Western social media companies, I think, are 
also part of a broader attempt to try and get the public in some of 
these places to either move away from or approach what they see on 
those platforms with caution.
    And I think, unfortunately, the media narrative and policy 
narrative that's evolving here in the U.S., as well as it has a 
somewhat longer history in Western Europe, around hate speech and fake 
news is playing into that. You hear some of these authoritarian leaders 
saying, Yeah, we told you that these platforms were dangerous places 
where horrible things happen. And without any sense of irony for what 
sort of role they may have played in fostering some of the hate speech 
and so-called fake news, they are now very happy to see people in the 
U.S. and in Western Europe calling for limitations on these platforms 
and essentially approving of regulation of speech on social media 
platforms.
    Another trend that has certainly picked up steam and is well-
documented in the Freedom on the Net report is the push for increased 
data localization. So Russia has its very strong personal data law, 
which requires any data operators that record, systematize, accumulate, 
store, amend, update, and retrieve data collected on Russian citizens 
to do so on servers located physically in Russia. The enforcement of 
that to date has been spotty. Dariya mentioned or Sanja mentioned, I 
think, that LinkedIn was the first sort of trial balloon. So LinkedIn 
was essentially pushed out of Russia for not complying. You know, 
LinkedIn did not have a huge business there, so it wasn't a huge deal 
to them or, I think, to the Russian Government. So it's still unclear 
whether or not they would be willing to take similar steps towards some 
of the larger platforms, but we've heard just in the last week threats 
to sort of make Facebook the next company against whom the Russian 
media regulator might enforce that law. And we've seen that kind of 
personal data law copied in other CIS companies, for example in 
Kazakhstan.
    It's unfortunate, I think, that--and again, with each of these 
examples, I think that the governments, in particular in the OSCE 
region, have been able to cite sort of legitimate policy rationales as 
a pretext for what are essentially authoritarian maneuvers. So, in the 
case of data localization, they can point to the data protection laws 
in Europe in particular and some of the incipient data localization in 
Western Europe. So, for example, Turkey's data protection--Turkey has a 
law on the protection of personal data which came into effect in 2016 
which limits the transfer of personal data out of Turkey and puts 
burdensome obligations on individuals which transfer personal data to 
another country. It also created a Data Protection Board, which is 
staffed by political appointees rather than technical staff, to assess 
which other countries provide a, quote/unquote, ``adequate'' level of 
privacy protection.
    So this is very similar to the European Privacy Shield arrangement, 
which has gotten a lot of attention in terms of its application to the 
U.S. And not to in any way suggest that the European Privacy Shield or 
data-protection regime more broadly is intended to enhance European 
surveillance--I don't think that's the case at all--but I do think that 
you could question the motives of, for example, the Turkish Government, 
whether it really is about protecting data of Turkish individuals, or 
rather an attempt to concentrate that data domestically, where it's 
easier to get access to it.
    So, moving to some of the trends we see on the offensive side, 
again, one that was noted in the Freedom on the Net report was the 
increased use of spyware or hacking tools very specifically against 
targeted individuals, either journalists or opposition figures. That's 
something we've seen worldwide, but also in the OSCE region. Azerbaijan 
journalists have been targeted, and it seems clear the government may 
have had a hand in that. The opposition in Kazakhstan has documented in 
a court case that's been brought by the Electronic Freedom Foundation. 
Going back a couple years now, Privacy International did a landmark, 
very extensive report on surveillance in Central Asia that documented 
purchase orders by many Central Asian regimes to some of the Western 
companies that produce this spyware, and there's very little control 
domestically within those countries in terms of how the government has 
used that software.
    I think, again, the concerns around surveillance that came out of 
the Snowden revelations in 2013 have undermined, I think, some of the 
criticism of this trend. And I think, unfortunately, also some of the 
attention to concerns about extremist content and terrorist use of the 
internet have been a ready justification that some of these 
authoritarian governments use to justify the purchase and use of these 
hacking tools.
    The other big trend, which is the headliner for this year's Freedom 
on the Net report, is the use of misinformation. So Berivan talked a 
little bit about the RedHack leak in Turkey, and the insight that it 
provided into the Turkish Government's attempt to sort of smear 
political opponents and engage in psychological warfare, as you said. 
Clearly, we see this coming out of Russia for political purposes, as 
Sanja and the report rightly points out, not just targeted against the 
United States but against a large number of countries, many of whom are 
in the OSCE region.
    But we also have seen good journalistic reporting on covering some 
of the misinformation that's really purely for economic purposes, so 
the infamous Macedonian journalists--oh, sorry, not journalists, but 
teenagers--[laughter]--who were, you know, basically cut-and-pasting 
right-wing disinformation, and packaging it in a way that they could 
get as many clicks as possible and generate actually fairly significant 
income, at least by Macedonian standards.
    And, of course, the Western policy narrative that we've seen cited 
as a justification for this kind of--in particular the cross-border 
manipulation of information is the very internet freedom agenda that 
the U.S. Government, with strong support from both parties here on 
Capitol Hill, has pursued. Of course, that's extremely cynical and 
disingenuous, but that is the excuse and the pretext that is at times 
cited by authoritarian regimes.
    So those are some of the trends that I think we've seen 
increasingly. I'm particularly concerned with the copycatting and the 
exchange of worst practices, perhaps we can call it, that we see in the 
OSCE region, in particular in the CIS region--a lot of exchange of 
know-how. You know, the Russian SORM system--the System of Operative 
Investigative Measures--which is the sort of surveillance at the 
internet-backbone level, is reproduced in a number of countries in 
Central Asia, and relies heavily on Russian companies who provide some 
of the hardware and software components of that. A lot of these tactics 
we're seeing modeled, whether it's just sort of observing it and 
copying it, or whether there is some kind of collaboration and 
cooperation among these governments is still not entirely clear.
    But we need to take heed of that and do as much as we can 
collectively as organizations that support internet freedom, as 
individuals working to support internet freedom, and as components of 
the U.S. Government to ensure that we are providing the right counter 
sort of channels of information sharing to increase awareness not only 
of digital security measures and ways to avoid surveillance and 
censorship, but also making sure we are articulating what good policy 
looks like so that those governments that are sort of on the edge, 
trying to figure out how to regulate the internet, have good, clear 
examples of how to do it in a rights-respecting way, so that they can 
balance that against some of the more problematic and authoritarian 
models that are being provided.
     I'll stop there. Happy to engage in Q&A.
    Ms. Warlick. Thank you very much for sharing some of the trends 
that you're seeing from the diverse GNI member perspective.
    We're running a little bit short on time, and we don't want Sanja 
and Dariya to miss their flights, but I will just go ahead and ask a 
couple of questions to you now and then open it up to Q&A. Hopefully we 
can get a few in if we can please make answers as brief as possible.
    First, to Sanja and Jason, you've both been tracking developments 
in the internet freedom space for some time. Has there been a 
particular country that has most surprised you this year in the OSCE 
region--for Sanja over the course of this report, and Jason in the last 
year at GNI and the State Department--and either for the better or for 
the worse?
    And then, to Berivan and Dariya--Dariya, you mentioned that the 
Ukrainian elite have maybe been a little bit less critical as a result 
of the acuteness of the challenges Ukraine is facing. How encouraged 
are both of you, in Turkey and Ukraine, by the civil society and public 
response to what's been going on? And how much of an influence do you 
think that this could have on the top levels of government, or does any 
chance for improvement need to originate from the top? And further, how 
can the U.S. Government and specifically the U.S. Congress better 
support civil society and internet freedom advocates?
    Whoever would like to start--maybe Sanja and Jason's question 
first?
    Ms. Kelly. Sure. So, in terms of some of the biggest surprises, 
actually, it was Ukraine for me because until recently Ukraine actually 
fared reasonably well in terms of internet freedom, and it is over the 
past year that we have seen these new restrictions surface. I think for 
me personally it's been particularly disappointing because in order, 
essentially, to fight Putin's tactics--the Ukrainian Government has 
embraced censorship, and in a way has become like Putin in this 
particular extent. So that would be one particular country.
    Another one that--perhaps it's not as surprising, but it's 
definitely a diversion from the past, is the case of Azerbaijan. And 
Azerbaijan has always been in the business of restricting internet 
freedom, at least since we started tracking the country, but their 
tactics have changed over the past year. In the past, they seem to have 
focused on actually arresting online journalists and online activists 
who were speaking out against the government, but they actually weren't 
blocking many websites. And, in fact, that's one of the key reasons 
when we would go and talk to the government officials or when they 
would make presentations at international conferences, they would say, 
Oh, what censorship in Azerbaijan? We're not blocking really anything. 
And that has changed over the past year.
    They had passed a new law that essentially authorizes blocking in 
wide circumstances, mainly in the circumstances where national 
interests or the interests of the society are being impacted. And as a 
result, we've seen a number of independent websites, including an 
online TV channel as well as Radio Free Europe/Radio Liberty, being 
blocked. So, anyway, just a change of tactics there.
    Mr. Pielemeier. I guess I would call attention in particular to 
some of the countries that actually do fairly well on the report, 
notwithstanding the fact that they operate in a very difficult 
neighborhood where there are a lot of challenges that they have to deal 
with and no easy solutions. In particular Georgia, which is in the top 
10, I think deserves a lot of credit. You know, the record there hasn't 
always been great, but over time they've managed to avoid some of the 
worst decisions that some of their neighbors have made and they've 
managed to maintain a relatively liberal, rights-respecting environment 
online. Also worth pointing out, Armenia and Kurdistan as countries 
that do relatively well. And I think it's really incumbent on all of us 
to not only call out those countries that do really poorly, but also 
acknowledge the countries that are doing relatively well, and make sure 
we provide support to them so that they can continue to demonstrate in 
a kind of more locally appropriate and perhaps adaptable way how to 
protect internet freedom in that region.
    I also would just point to the Ukraine as kind of one of the 
countries of biggest concern, not because I--you know, certainly the 
difficult environment that they face, the difficult information 
environment as well as the physical attacks and conflict in that 
country, are in some ways unique. But really for those very reasons I 
think it is incumbent on all of us to be doing more to provide support 
to reformers who are trying to take advantage of what I think a lot of 
people see as a really once-in-a-generation opportunity to liberalize 
the legal architecture in that country.
    That window I fear is closing. I mean, Dariya can speak to it much 
better than I can, but I feel that window of opportunity is closing 
quickly, and it's only going to get more and more difficult to 
implement liberal reforms. And so I commend those here on Capitol Hill 
who have made Ukraine a real sort of consistent point of attention and 
focus, commend organizations like Internews and others within GNI who 
have been doing a lot in that country, but really encourage more of all 
of our organizations and entities to do more to support in particular 
internet policy reform in the Ukraine.
    Ms. Warlick. Thank you.
    Dariya and Berivan, if you'd like to answer the other question I 
asked or respond to any of the other comments.
    Ms. Orlova. Yes. You asked about the reaction of the civil society 
to the ban and to other initiatives that could threaten the internet 
freedom in Ukraine. Well, actually, when it comes to this particular 
ban, I would say that the voice of those who opposed it was quite weak 
in Ukraine. So even if they--of course, there have been actors who--I 
mean, like some NGOs, some journalists--who expressed their criticism 
of the move. However, they haven't been very active in expressing that 
and reaching like the big media discourse. And that is explained by the 
extreme sensitivity of the issue of the Ukraine-Russia war, because 
there's this general atmosphere of fear in Ukraine that Ukraine's 
territorial integrity and sovereignty is still under threat, and so let 
us not discuss that a lot.
    However, some positive signals that could be observed in Ukraine 
recently include a quite strong reaction of NGOs with regard to several 
proposed bills that also included some of the provisions that 
potentially could lead to restrictions in terms of internet freedom. 
And then NGOs united--Ukrainian NGOs united--and they have been quite 
unanimous in their criticism of those provisions. And so in one of the 
bills that was accepted, this dangerous provision was deleted from 
that. So I would say that's an example of some positive impact that 
NGOs can have when it comes to the restrictions of the internet 
freedom.
    To summarize, when it comes to the conflict with Russia issue, it's 
very sensitive, and you cannot expect much strong voices in Ukraine. 
But when it comes to restrictions with regard to some political 
implications, one can expect such voices.
    Ms. Warlick. Thank you.
    Ms. Orucoglu. You asked how encouraged I am, and I'm a natural-born 
pessimist, so not very much. But I think things will get worse before 
it gets--or even if it gets--better.
    The thing is, I 100 percent agree to Sanja and her recommendations, 
especially about the speaking up part, because for most of the 
activists or imprisoned people the only thing that matters, you know, 
and helps their release is the international support. And with this 
administration, but also even with the Obama administration, Turks were 
very much disappointed because they didn't really see the support or 
public support of the imprisoned activists or the journalists. And so, 
so many people are actually looking for Congress to speak out when 
there is human rights violations or against press or private citizens. 
And I agree with you that DRL is doing a very important job, but we see 
less and less State Department's involvement about those issues.
    So, absolutely, the activists not only in Turkey but in the region 
are looking forward to hear just a little something to keep them going 
on, because if anything the authoritarians--not only Erdogan, but other 
authoritarians as well--really care about their international image. 
They are affected, and they actually sometimes end up releasing people 
who are in prison. The international community needs to speak up, and 
this is my expectation as well.
    Thank you.
    Ms. Warlick. All right. Well, I think we'll open it up if anyone in 
the audience has a question.
    Yes?
    Questioner. For Jason, then back to Sanja. This important report 
comes at a time also when the large media and internet companies are 
accelerated in size so dramatically. We see the alignment of civil 
society and freedom seeming to be much more comfortable with the 
private sector, and are kind of looking to the private sector to help 
us navigate where to go. But at the same time, the sheer scale of 
Google and Amazon and Facebook is a flip side of that story. I'm 
curious where you would comment that this report leads into the OTT 
data streaming discussions at U.N., and how the future of mobile 
banking and data flows across government lines--you know, will we lean 
towards less regulation or more government control?
    Ms. Warlick. If you could also please introduce yourself?
    Questioner. Well, I'm affiliated, in a sense, with Freedom House. 
We are supporters of Freedom House.
    Ms. Warlick. OK. Thank you.
    Mr. Pielemeier. I think that there's a number of components to your 
question. I think the issue of data flow restriction is a really 
concerning one to us at GNI. I think there are--I mentioned the trends 
around data localization--and also the broader issue of data 
protection, and how that could end up affecting when and where and how 
companies can share information even within their own sort of corporate 
systems when that information has to flow from one country to another. 
And again, I don't want to pass any judgment on data protection 
measures, which are sort of outside of our scope, but I do think 
governments need to be very concerned and very careful with how they 
develop restrictions on data flows, because we have seen already the 
appeal that such restrictions have to authoritarian governments who 
want to use them as a pretext for their own information-control 
measures. And so whether the data restrictions are being designed to 
protect privacy or in furthering some sort of economic or trade 
priorities, I think it's just really incumbent on democratic 
governments to think very carefully about the way in which they 
approach those kinds of potential restrictions.
    And I think really, we would say that there needs to be kind of a 
presumption in favor of the free flow of data. And so we should only 
restrict it in those rare circumstances where there is an extremely 
compelling policy rationale, and enough safeguards built in around 
whatever system is being designed to ensure that that data restriction 
will not lead to the fracturing of the internet and cannot be used as a 
pretext for other governments to do what might essentially amount to 
censorship or surveillance.
    Ms. Warlick. Thank you.
    Would anyone else like to comment? Sanja?
    Questioner. About the large players, large actors. [Laughter.]
    Ms. Kelly. Well, I think it's been interesting to observe how 
certain partnerships between civil society and the private sector have 
evolved. And I think in many ways that has happened because the private 
sector and the companies don't like restrictions and regulation. So 
then, as part of their business model, they actually don't want to see 
censorship and they don't want to be subjected to the policies that we 
see in China and Russia and other places. So it's in their interest to 
actually promote internet freedom. And for that reason we had seen some 
quite successful partnerships between NGOs and human rights defenders 
in the field, and then companies like Google and so forth, many of 
which are GNI members.
     I think on the flip side of that coin we've also seen that the 
products of some of these companies are actually spaces in which some 
of the key trends that we identified in this year's report, it's where 
they happen. And in many ways, then, these products and tools have 
become ways through which governments and malicious governments are 
able to manipulate and in some ways restrict freedom of expression.
    I think it's an interesting dynamic to observe and we'll see what 
the future brings. But I do want to highlight that civil society has 
had pretty successful partnerships with many of the companies.
    Ms. Warlick. Thank you. Do we have any more questions? I think we 
have time for one more.
    If not, I'll just welcome all of you to give any final remarks 
you'd like to give.
    Ms. Kelly. Well, thank you all very much for coming today and for 
taking an interest in this important subject. I just want to highlight 
the importance of U.S. Congress and the Helsinki Commission in speaking 
out against the abuses because, I think as several of us have 
mentioned, that has proven to be critical in highlighting some of these 
cases, and in some instances the release of activists who were 
imprisoned for simply speaking out on democracy and human rights.
    And I also want to echo what several of my colleagues up here said, 
that we have personally witnessed the success of the State Department 
programs in much of the world when it comes to protecting internet 
freedom, and not many governments and not many entities are actually 
funding this very important fight that is currently going on to prevent 
internet censorship from happening. A lot of the partners that we see 
on the ground, a lot of the frontline human rights defenders, are 
really relying on the support from agencies such as the State 
Department and DRL. I just want to underline the importance of 
supporting their important work through appropriations and other 
measures.
    Ms. Warlick. Thank you.
    Anyone else?
    Ms. Orucoglu. Completely agree, everything she said. [Laughter.]
    Ms. Warlick. Very well said, Sanja. And thank you so much to all of 
the panelists for being here and for all of you for coming.
    That concludes our briefing.
    Ms. Kelly. Thank you. [Applause.]
    [Whereupon, at 2:18 p.m., the briefing ended.]
 

  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe [OSCE].

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
